                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

  Case Number: 1-07-12-0049                                                                 Page 1 of 1



          This investigation was initiated based on an allegation that a NSF Senior Executive Service
          (SES) Division Director 1 (Subject DD), and a NSF SES Division Executive Officer, the Subject
          DD's subordinate (Subject Eoi were involved in a sexually intimate relationship. It was alleged
          that this relationship had adversely affected Division morale and had resulted in an improper
          allocation of travel funds due to the Subjects' excessive and unnecessary joint travel.

          Investigation verified that the Subjects were engaged in a sexually intimate relationship during
          the same time period they had take~ 41 joint trips. Three successive Assistant Directors3 (ADs)
          questioned Subject DD and Subject EO about the necessity of this joint travel. OIG learned that
          Subjects never disclosed the intimate relationship to the ADs. Subject EO admitted that a
          "minority" o'fthe joint trips were extended to further their intimate relationship. Subject DD
          denied that any of the travel was inappropriate.

          This matter was referred to NSF. NSF concluded that there was insufficient evidence to suggest
          that Subjects' travel was unnecessary. As a result of this investigation, NSF reassigned Subject
          DD4 and instituted policy changes regarding travel approval levels for senior personnel. 5

          This investigation is closed.




NSF OlG Fonn 2 (11102)
